Peer Review of the Audit Operations of the
     National Endowment of the Arts
      Office of the Inspector General

                  ISSUED:
           December 13, 2013
                        U.S. CONSUMER PRODUCT SAFETY COMMISSION
                                   BETHESDA, MD 20814
Christopher W. Dentel                                                               Tel: 301 504-7644
Inspector General                                                                   Fax: 301 504-7004
                                                                             Email: cdentel@cpsc.gov


                                  System Review Report
December 13, 2013

Ms. Tonie Jones, Inspector General
National Endowment for the Arts
1100 Pennsylvania Avenue, Room 601
Washington, D.C. 20506

Dear Ms. Jones:

We have reviewed the system of quality control for the audit organization of the National
Endowment for the Arts (NEA), Office of Inspector General (OIG) in effect for the year ended
March 31, 2013. A system of quality control encompasses the NEA OIG’s organizational
structure and the policies adopted and procedures established to provide it with reasonable
assurance of conforming with Government Auditing Standards. The elements of quality control
are described in Government Auditing Standards. The NEA OIG is responsible for designing a
system of quality control and complying with it to provide the NEA OIG with reasonable
assurance of performing and reporting in conformity with applicable professional standards in
all material respects. Our responsibility is to express an opinion on the design of the system of
quality control and the NEA OIG’s compliance therewith based on our review.

Our review was conducted in accordance with Government Auditing Standards and guidelines
established by the Council of the Inspectors General on Integrity and Efficiency (CIGIE). During
our review, we interviewed the NEA OIG personnel and obtained an understanding of the
nature of the NEA OIG audit organization, and the design of the NEA OIG’s system of quality
control sufficient to assess the risks implicit in its audit function. Based on our assessments, we
selected engagements and administrative files to test for conformity with professional standards
and compliance with the NEA OIG’s system of quality control. The engagements selected
represented a reasonable cross-section of the NEA OIG’s audit organization, with emphasis on
higher-risk engagements. Prior to concluding the review, we reassessed the adequacy of the
scope of the peer review procedures and met with the NEA OIG management to discuss the
results of our review. We believe that the procedures we performed provide a reasonable basis
for our opinion.

In performing our review, we obtained an understanding of the system of quality control for the
NEA OIG’s audit organization. In addition, we tested compliance with the NEA OIG’s quality
control policies and procedures to the extent we considered appropriate. These tests covered
the application of the NEA OIG’s policies and procedures on selected engagements. Our review

                                                                                        1|Page
                            U.S. CONSUMER PRODUCT SAFETY COMMISSION
                                       BETHESDA, MD 20814


                                      TABLE OF CONTENTS


Scope and Methodology ..................................................................................................... 1
Letter of Comment.............................................................................................................. 2
   Finding 1: Audit Policies and Procedures........................................................................ 2
   Finding 2: Documentation of the Assessment of Threats using Independence
   Conceptual Framework ................................................................................................... 3
   Finding 3: Annual Internal Quality Control Review ....................................................... 4
   Finding 4: Overall Assessment of the sufficiency and appropriateness of evidence ..... 5
   Finding 5: Degree of Responsibility over IPA Work ....................................................... 6
Appendix A – NEA OIG Responses to Letter of Comment .................................................. 7




                                                                                                                  1|Page
                             SCOPE AND METHODOLOGY



Scope and Methodology

We tested compliance with the NEA OIG audit organization’s system of quality control to the
extent we considered appropriate. These tests included a review of 1 of 6 audit reports issued
during the period September 30, 2012, through April 1, 2013, and semiannual reporting periods
April 1, 2012 through September 30, 2012 and October 1, 2012 through March 31, 2013. We
also reviewed the internal quality control review performed by the NEA OIG.

In addition, we reviewed the NEA OIG’s monitoring of engagements performed by IPAs where
the IPA served as the principal auditor during the period September 30, 2012, through April 1,
2013. During the period, NEA OIG contracted for the audit of its agency’s Fiscal Year 2012
financial statements to Leon Snead & Company, P.C.

We visited the Washington, DC office of the NEA OIG.

Reviewed Engagements Performed by NEA OIG
Report No.                     Report Date Report Title
                                             Limited Scope Audit Report of the Association
LS-12-02                         8/3/12      of Performing Art Presenters (DC)
Reviewed Monitoring Files of NEA OIG for Contracted Engagements
Report No.                     Report Date Report Title
A-13-01                         11/08/12     NEA FY 2012 Financial Statement Audit




                                                                                  1|Page
                                                Letter of Comment
December 12, 2013

To: Tonie Jones, Inspector General
National Endowment for the Arts

We have reviewed the system of quality control for the audit organization of the National
Endowment for the Arts (NEA), Office of Inspector General (OIG) in effect for the year ended
March 31, 2013, and have issued our report thereon dated December 12, 2013, in which the OIG
received a rating of pass. That report should be read in conjunction with the comments in this
letter, which were considered in determining our opinion. The findings described below were
not considered to be of sufficient significance to affect the opinion expressed in that report.


Finding 1: Audit Policies and Procedures

Audit organizations should have documented policies and procedures in place to provide
reasonable assurance of compliance with the Government Accountability Office’s (GAO)
Government Auditing Standards (also known as Generally Accepted Government Auditing
Standards (GAGAS)). According to GAGAS, audit organizations are required to develop and
maintain a system of quality control that includes adequate policies and procedures. In
addition, GAGAS requires the documentation and maintaining of such policies and procedures
to serve as a reference for audit staff. 1 The OIG maintains the majority of its audit policies and
procedures in the NEA OIG Audit Manual. During our review of the OIG’s audit policies and
procedures, we were unable to obtain adequate documentation of certain policies and
procedures, set out below, related to following GAS requirements that are essential to
compliance with GAGAS:

     Independence
         • 3.24: Documentation of Independence Safeguards
         • 3.26: Threats to Independence and revision to audit findings and recommendations
         • 3.16 – 3.17: Discussion of all independence safeguards

     Planning – Performance Audits
         • 6.40 – 6.44: Using work of others
         • 6.23 – 6.27: Understanding Information System Controls
         • 6.34: Abuse

     Reporting Standards – All Engagements
        • 7.21 – 7.23: Reporting requirements for fraud and abuse
        • 7.39 – 7.43: Reporting confidential or sensitive information
1
 Government Auditing Standards, (GAO-12-331G), December 2011 Revision
3.83 “An audit organization’s system of quality control encompasses the audit organization’s leadership, emphasis on performing
high quality work, and the organizational policies and procedures to provide reasonable assurance of complying with professional
standards and applicable legal and regulatory requirements.”
3.84 “Each audit organization should document its quality control policies and procedures and communicate those policies and
procedures to its personnel.”


                                                                                                                   2|Page
Further inquiry of the OIG found that many of the GAS requirements in question had been
implemented but were not fully documented in the OIG’s policies and procedures, and that the
OIG ensures that all audit staff demonstrates a sufficient level of competence in performing
their duties. Through our review of staff profiles and training records, we noted that all OIG
staff had an exceptional level of competence and expertise. However, having explicitly
documented audit policies and procedures reinforces compliance with all GAS requirements.

Upon notice of the deficiencies during our review, the OIG performed edits of the NEA OIG Audit
Manual to address the standards noted above. However, we did not perform procedures to
assess the adequacy of these changes, as the updates of those policies and procedures occurred
outside of the designated review scope period. Thus, we do not express an opinion regarding
the updated policies and procedures.

Recommendation: Ensure all OIG audit policies and procedures are completely documented in
the NEA OIG Audit Manual in adherence with GAGAS.

Views of Responsible Official: Concurred



Finding 2: Documentation of the Assessment of Threats using Independence Conceptual
Framework

The GAGAS’s independence framework mandates the use of a conceptual approach that can
accommodate for varying situations and circumstances that auditors can encounter which can
pose a “threat” and possibly impair the auditors’ independence. Therefore, the auditor should
perform and document the assessment of threat(s) to determine whether there is a need for
the auditor to apply safeguard(s) to either reduce or eliminate the threat. 2 In our review of the
performance audit, there was no documentation in the audit file regarding the assessment of
threats.

The OIG’s current policy addresses auditor independence by requiring the completion of the
NEA’s OIG “Statement of Independence.” This affirmation of independence is included in each
audit working paper file in addition to a separate independence workpaper that documents the
completion of the independence form and affirms that the auditor is independent and free from
personal, external, and organization impairments. However, the affirmation requires that the
auditor have “read” the GAGAS independence requirements, including those of the conceptual
2
  Government Auditing Standards, (GAO-12-331G)
3.08 “Auditors should apply the conceptual framework at the audit organization, audit, and individual auditor levels to:
a. identify threats to independence; evaluate the significance of the threats identified, both individually and in the aggregate; and
c. apply safeguards as necessary to eliminate the threats or reduce them to an acceptable level.”
3.59 “Documentation of independence considerations provides evidence of the auditor’s judgments in forming conclusions
regarding compliance with independence requirements. GAGAS contains specific requirements for documentation related to
independence, which may be in addition to the documentation that auditors have previously maintained. While insufficient
documentation of an auditor’s compliance with the independence standard does not impair independence, appropriate
documentation is required under the GAGAS quality control and assurance requirements. The independence standard includes the
following documentation requirements: a. document threats to independence that require the application of safeguards, along with
safeguards applied, in accordance with the conceptual framework for independence as required by paragraph 3.24”



                                                                                                                     3|Page
framework. It does not explicitly require the auditors to document the assessment of threats
using the conceptual framework. The nature of the audits performed by the NEA OIG is
primarily compliance based. Although pragmatically, while there may be no threats to
independence in regards to the audits they perform in general, without documenting the initial
assessment of threats included in the conceptual framework, the auditor cannot provide
reasonable assurance that threats do not exist in any particular audit nor demonstrate
adherence to GAGAS.

Recommendation: Clarify the documentation requirements of the use of the independence
conceptual framework in their policies and procedures, explicitly concerning the documentation
of the assessment of threats. Specifically, the NEA OIG should update the individual
independence workpaper in each audit to include procedures to document the assessment of
threats.

Views of Responsible Official: Concurred



Finding 3: Annual Internal Quality Control Review

The OIG did not comply with its quality control procedures for reviewing the audit organization
annually. We identified that the annual quality control review performed by the IG most
recently covered a two-year period including both 2011 and 2012 audit activities. However, it is
the OIG’s policy to conduct the review annually. In addition, GASAS requires the annual
summarization of each audit organization’s monitoring process. 3 The IG indicated that the
cause of the bi-annual review was that of internal constraints that prevented the timely
performance of the 2011 review – resulting in a bi-annual review at the end of 2012. These
constraints included lack of staff, resources, and implementation of their new audit software -
Auto Audit.

This issue was also noted as a finding in the prior external peer review conducted in 2010.
While the OIG did remediate the finding, by performing the review and summarizing the results,
the review was untimely in relation to 2011 audit activities. Timeliness is an important factor in
the monitoring of the quality of the audit organization, as any deficiencies identified during the
review should include the implementation of corrective action in a timely fashion. When the
review itself is performed in an untimely manner, deficiencies in audit quality may go un-
remediated and ultimately affect the operating efficiency and effectiveness of the quality
control system.

Recommendation: Ensure that annual internal quality control review over the OIG audit
organization is performed annually to ensure compliance with GAGAS and NEA OIG audit
policies and procedures.

Views of Responsible Official: Concurred


3
 Government Auditing Standards, (GAO-12-331G)
3.95 “The audit organization should analyze and summarize the results of its monitoring process at least annually, with identification
of any systematic or repetitive issues needed improvement, along with any recommendations for corrective actions.”


                                                                                                                      4|Page
Finding 4: Overall Assessment of the sufficiency and appropriateness of evidence

GAGAS states auditors should perform and document an overall assessment of the collective
evidence used to support findings and conclusions, including the results of any specific
assessments conducted to conclude on the validity and reliability of specific evidence. As a
result of the assessment, auditors should determine the overall sufficiency and appropriateness
of evidence to provide a reasonable basis for the findings and conclusions, within the context of
the audit objectives. 4

During our review, we noted that there was no summary documentation to support the
performance of the overall assessment of evidence in the performance audit reviewed. Through
follow-up discussions with the NEA OIG, we were unable to obtain a clear understanding of why
the summary assessment was not documented. Provisions that drive NEA audits include but are
not limited to compliance with Office of Management and Budget (OMB) Circulars A-133, A-87,
A-110 and/or A-102. Further, the NEA OIG defines theses audits as “limited scope,” as only a
limited review is performed over certain financial and non-financial grantee information to
determine compliance.

Therefore, to gain a further understanding of the audit objectives related to the audits NEA OIG
performs, we obtained and reviewed both OMB Circular A-110 and the NEA General Terms and
Conditions, which is cited in the performance audit reviewed. In our review, the NEA’s General
Terms incorporate the requirements of A-110. As such, A-110 requires that the grantee
maintain appropriate financial management systems to include reporting of financial results,
internal controls, cost allocations, and policies and procedures just to name a few. 5

In the performance audit, the audit report cites non-compliance with OMB Circular A-110 and
NEA General Terms and Conditions. Specifically, the first audit finding cites that the grantee is
not in compliance with aspects OMB Circular A-110 financial management standards. To
support this conclusion, the audit report states that the auditor reviewed the grantee’s general
ledger detail, something which an experienced auditor would conclude to be significant to the
compliance audit objective, based on the direct relationship between the general ledger detail
reviewed, OMB Circular A-110 requirements, and the conclusion drawn – noncompliance.

Based on this premise, we believe that the compliance objective(s) is sufficiently significant in
nature to warrant the assessment of evidence for the types of audit the NEA OIG performs.
While, in the performance audit reviewed, the lack of an overall assessment of the collective
4
  6.56 “Auditors must obtain sufficient, appropriate evidence to provide a reasonable basis for their findings and conclusions.”
6.69 “Auditors should determine the overall sufficiency and appropriateness of evidence to provide a reasonable basis for the
findings and conclusions, within the context of the audit objectives… Auditors should perform and document an overall assessment
of the collective evidence used to support findings and conclusions, including the results of any specific assessments conducted to
conclude on the validity and reliability of specific evidence.”
5
  OMB Circular A-110, Subpart C. Financial and Program Management §_.20, Purpose of financial and program management.
“Sections ___.21 through ___.28 prescribe standards for financial management systems, methods for making payments and rules
for: satisfying cost sharing and matching requirements, accounting for program income, budget revision approvals, making audits,
determining allowability of cost, and establishing fund availability.”



                                                                                                                    5|Page
Appendix A – NEA OIG Responses to Letter of Comment




         PAGE INTENTIONALLY LEFT BLANK




                                                      7|Page
